No. 19In The
SUPREME COURT of the UNITED STATES
MARK J. SCHWARTZ,
Petitioner
v.
CLARK COUNTY and JACQUELINE R.
HOLLOWAY,
Respondents

On Petition For Writ Of Certiorari
to the United States Court of Appeals for the Ninth
Circuit
PETITION FOR WRIT OF CERTIORARI
APPENDIX PART C

Mary F. Chapman, Esq.
Counsel of Record
Law Office of Mary F. Chapman, Ltd.
8440 West Lake Mead Blvd. #203
Las Vegas, Nevada 89128
(702) 202-4223

APPENDIX PART C
TABLE OF CONTENTS
A.

Excerpts from Trial Transcript.............59a-87a

i

Case 2:13-cv-00709-JCM-VCF Document 158 Pg 136
expectancy is or isn't. And so, for those reasons, we
think that the admission of this particular document
would not assist the jury in their deliberations in
answering the issue there.
THE COURT: But my problem is are they
recoverable damages?
MS. GIVENS: Pardon me?
THE COURT: Are they recoverable damages under
the law?
MS. GIVENS: That too, Your Honor.
MS. CHAPMAN: What he testified to, Your Honor, is
back pay, back benefits, and front pay and interest
on those damages, which are recoverable if we were
to prevail. And with regard to -THE COURT: Or reinstatement. Isn't reinstatement
the preferred remedy?

59a

MS. CHAPMAN: Your Honor, given Mr. Schwartz's
age and condition and the fact that he's been out of
the workforce for nine years, I don't think that is a
likely remedy at this point.
MS. GIVENS: Your Honor, the -- the reinstatement
in this case wouldn't look like Mr. Schwartz coming
back to work. It would be the County providing -THE COURT: I'm aware.
MS. GIVENS: -- for that period.
2:13-cv-00709-JCM-VCF Document 158 Pg 137
THE COURT: That was a bit of a trick question.
MS. GIVENS: Yes.
THE COURT: But -- but the -- the damages are
limited. And, you know, unless you've got some -- I
mean,
he's -- he's established a factual basis for it in his
mind, but for me to admit that, I don't know that

60a

those are all recoverable under the law. I don't want
to say too much in front of the jury.
MS. GIVENS: So I guess, just to restate my
objection, Your Honor -THE COURT: I'm not inclined to admit it for that
reason.
MS. GIVENS: Thank you, Your Honor.
THE COURT: You know, it's -- maybe we need to
redact it or something like that or we can talk about
but, in other words, it's got to be -- I mean, the -there's got to be case law supporting it.
MS. CHAPMAN: We can discuss it out of the
presence. We were just using the document that had
been exchanged in discovery. So if -- we can look at
redactions, Your Honor.
THE COURT: All right.
BY MS. CHAPMAN:

61a

Q. Mr. Schwartz, what was -- when you said you
calculated the back pay, what all did you include in
that calculation?
A. The back pay was from the date I was terminated
to the
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 138
first pay period in -- the first period in 2014, which is
when I probably would have retired.
Q. 2014 or 2013?
A. I was either going to retire -- let me rephrase. I
apologize. I was either going to retire after my
birthday 2013 or maybe go through the following
year to save on taxes. Because -- because, obviously,
the additional payoff for vacation and sick leave
would have boosted my taxable income for 2013.
MS. GIVENS: Your Honor, if I may just interpose,
I'm not sure if I would interpose a motion to strike a

62a

part of that answer. Because you've already ruled in
a motion excuse me, in an order regarding our
motion in limine that plaintiff isn't allowed to -MS. CHAPMAN: Your Honor, can we sidebar?
MS. GIVENS: -- present damages beyond July 1st,
2013. You already ruled that.
THE COURT: Yeah.
MS. GIVENS: So to the extent he's talking about any
time frame beyond that...
MS. CHAPMAN: Your Honor, what Mr. Schwartz
just testified to was he was planning on 2013. As a
CPA, he's thinking that maybe he would have waited
until January. But, I mean, we can't strike his
thought process.
THE COURT: No, that's -- but, I mean, I'm inclined
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 139
to cut it off at this point.

63a

MS. CHAPMAN: Your Honor, I can't -- I mean -THE COURT: I mean -MS. CHAPMAN: Can we -- I would -THE COURT: You understand that damages have to
be based on some -- I mean, I can't just say -MS. CHAPMAN: I understand this, Your Honor. And
his testimony -THE COURT: -- I was laid off and so I'm entitled to
400,000 and then 250,000 for lost pay and then
vacation pay, 84 million, and then -- so now I'm owed
$100 million.
MS. CHAPMAN: No, Your Honor.
THE COURT: You understand? I mean, it's got to -there's got to be some basis in the law for that.
MS. CHAPMAN: I understand this, Your Honor. And
Mr. Schwartz had testified that he was planning on
retiring in July --

64a

THE COURT: July 1 on his 66th birthday.
MS. CHAPMAN: -- of 2013 when he turned 65,
which was the basis of all of the calculations. If they
want Ms. what counsel is objecting to is that he just
added onto his testimony that maybe he would have
waited a little longer because of taxes but, I mean -THE COURT: Is that all you were objecting to?
MS. GIVENS: I was objecting to any of the testimony
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 140
that addressed any period beyond July 1st, 2013 -THE COURT: Yeah.
MS. GIVENS: -- consistent with your order, Your
Honor.
THE COURT: Yeah.
MS. CHAPMAN: Right. And the damage calculation,
Your Honor, is staying at July 1st.
THE COURT: So why are we having him testify

65a

more than that?
MS. CHAPMAN: I'm not sure. It wasn't my
objection, Your Honor.
THE COURT: No, no. I'm asking you. You wanted to
put that testimony in. What's -- what's the relevance
of that, then?
MS. CHAPMAN: I didn't ask him to put the
testimony in, Your Honor. It's just what he said on
the stand.
THE COURT: All right.
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 143
Q. Now, you also gave -- testified that you used a -something for your age. And what did you base how
how long you were going to live on?
A. Social security and insurance company use
actuarial tables to calculate -THE COURT: Just answer her question.

66a

THE WITNESS: Could you repeat the question,
please?
BY MS. CHAPMAN:
Q. I asked what you based your estimate on how long
you were going to live on.
A. Based on the actuarial tables available.
Q. Okay. And could you describe what those are for
those of
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 144
us who don't know.
A. Social security and -THE COURT: Whoa. What are -- what are actuarial
tables?
THE WITNESS: Actuarial tables are based on tables
which estimate the average life of males and
females.
THE COURT: There you go.

67a

BY MS. CHAPMAN:
Q. And what type of damages are you asking for for
emotional distress?
THE COURT: Let me see counsel at sidebar just a
moment.
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 148
other damages that you were seeking in this case.
And are there other damages?
A. Yes.
Q. And what other damages are you seeking in this
case?
A. I'm seeking $25,000 a year from when Jacqueline
first started in 2003 to now based on the effect it had
on me emotionally.
Q. And could you describe for us what that emotional
impact/effect was.
A. Okay. Well --

68a

MS. GIVENS: Objection. Your Honor, I believe the
testimony I just heard -- I wasn't sure, I couldn't
quite understand -- is that the witness is talking
about emotional distress damages from 2003? The
damages have to be based on the ADA complaint,
Your Honor.
THE COURT: Yes.
MS. GIVENS: And that wasn't filed, I believe, until
2010. So I'm not sure what to make of that
testimony, and and whether or not counsel should
continue to receive the testimony concerning prior to
when he filed the charge.
BY MS. CHAPMAN:
Q. Mr. Schwartz, if you would confine it to the time
period covered by your charge moving forward.
A. Then it would be August of 2010 to today.
Q. And could you --

69a

Case 2:13-cv-00709-JCM-VCF Document 158 Pg 149
MS. GIVENS: Then I'm going to object to that
answer as well when he says, "to today." Because,
again, you've already ruled, Your Honor, that he
can't talk about damages beyond the July 1st -THE COURT: 2013.
MS. GIVENS: Yes.
MS. CHAPMAN: Your Honor, that -- that ruling
applied to wages. It did not apply to emotional
distress and emotional distress damages were not
even brought up.
MS. GIVENS: Well, but, Your Honor, the emotional
distress damages are only with regard to the ADA.
He's not been in the workplace since 2010.
THE COURT: Yeah.
MS. GIVENS: I'm not understanding how there
could be continuing to today any damages with

70a

regard to the ADA.
MS. CHAPMAN: Your Honor, if he feels that he's
being continually damaged in this long, drawn-out
fight to seek justice, that is his prerogative to testify
to that if he is feeling emotionally damaged.
THE COURT: It's got to be supported by the law. I
don't -- I'm not -MS. CHAPMAN: By the process. And there's nothing
that limits it.
THE COURT: Pardon me?
MS. CHAPMAN: There's nothing in the law that
limits
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 150
that request by the plaintiff.
THE COURT: No. But, I mean -MS. CHAPMAN: It still has not been cured.
THE COURT: But I tend to agree with -- I'm still --

71a

let me see counsel at sidebar just a moment.
(Discussion held at sidebar as follows:)
THE COURT: And maybe I'm getting hung up. I
always -of course, I'm looking ahead to get this to the
jury. You understand? But wait now. So the County
admits that he's entitled to some damages; is that
right?
MS. GIVENS: Well, I would -THE COURT: Or not?
MS. GIVENS: -- think we're defending that he's not
entitled to any. We don't think that we're liable to
him for any damages.
THE COURT: But with the jury you're going to say,
"No, no damages for him;" is that going to be your
position?
MS. GIVENS: Correct.
THE COURT: I'm not trying to cut you off.

72a

MS. GIVENS: Oh, yes. Yes.
THE COURT: I'm looking ahead to this thing. How
do we present this to the jury and break it out for
them so that -- "I'm not going to give you that, but I
am going to give you this, but I think that's" -- you
know?
MS. GIVENS: I don't know. We've structured our
Case 2:13-cv-00709-JCM-VCF Document 158 Pg 151
verdict form in a way that it's just elicited simply: Do
you believe that -THE COURT: Yeah.
MS. GIVENS: -- he was laid off because of his
disability? Do you believe that he was laid off
because of his age? And if so, how much damages for
the age? How much damages for the disability?
That's how our form looks.
MS. CHAPMAN: And I think it needs to be broke out

73a

much, much more than that. Because I think it has
to be broke out because you have, you know, the
federal standard and the state standard. There's two
different standards apply. You know, did they -THE COURT: But how are you going to explain that
to the jury?
MS. CHAPMAN: Well, Your Honor, I think you look
at it just like anything else. How much -THE COURT: Well, no, no, no.
MS. CHAPMAN: -- for back pay -THE COURT: How are you going to explain that to
the jury?
MS. CHAPMAN: Well, I think on the verdict form
you have back pay, you know, X number of dollars;
you have front pay, X number of dollars; and you
have emotional distress, X number of dollars. And
the emotional distress only goes under

74a

Case 2:13-cv-00709-JCM-VCF Document 158 Pg 152
the ADA.
THE COURT: Okay.
MS. CHAPMAN: And that, of course, is subject to a
statutory cap. But I don't think he is limited as far as
if he feels he is still emotionally charged because he
feels he was discriminated against in 2010 and it
still hasn't been cured, and that -- you know, that it's
still causing an emotional rock, he has a right to
testify -MS. GIVENS: I'll withdraw that objection. He can
testify to emotional damages if he feels like it's still
happening today.
THE COURT: You know -- okay.
(Sidebar concluded.)
THE COURT: Okay. Ms. Givens, you're withdrawing
your objection?

75a

MS. GIVENS: Yes.
THE COURT: You may proceed then.
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 124
A. No.
Q. Was Ms. Perez or Mr. Hoffman authorized to
contact human resources and provide them
information about possibly changing Ms. Powell's
title?
A. No.
Q. Are you aware of whether Mr. Hoffman had
contacted HR in advance asking about how the
process would be to potentially get a title change?
A. I'm not aware of that.
Q. Are you aware of HR reaching back to your
department asking for documentation to support a
title change for Ms. Powell?
A. Yes.

76a

Q. And what is your knowledge about HR coming
back to your department asking for supporting
documentation for a title change for Ms. Powell?
A. It appears it was a request for information.
Q. And do you know why that request for
information was sent to you?
A. I do not.
Q. Was the information responded to? Did you -- did
you or someone in your department respond to the
request from human resources and provide them
information?
A. Eventually.
THE COURT: What's the relevance of this with
Case 2:13-cv-00709-JCM-VCF Document 159 Pge125
Ms. Powell?
MS. CHAPMAN: Well, Your Honor, she just testified
she didn't know and they didn't have contact about a

77a

title change for Ms. Powell.
THE COURT: I know. I was sitting here, too.
I've -- I've been listening.
MS. CHAPMAN: And she, of course, is copied on the
e-mail.
THE COURT: And what?
MS. CHAPMAN: She is on the e-mail.
THE COURT: Well, how -- what's the relevance of it?
What does that have to do with Mr. Schwartz?
MS. CHAPMAN: Because there -- all of the persons
in management analyst titles were changed with the
exception of Mr. Schwartz and Ms. Powell, although
attempts were made to change Ms. Powell's.
THE COURT: Again, my question is: What's the
relevance of that with Mr. Schwartz?
MS. CHAPMAN: Because it is evidence that
establishes that Mr. Schwartz was isolated into the

78a

management analyst category, Your Honor, and
targeted for layoff.
THE COURT: How does it do that?
MS. CHAPMAN: Because everyone else was given a
title change without a job change classification,
without any changes in their jobs; their titles were
all changed. They
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 126
THE COURT: Well, and she was the only one -MS. CHAPMAN: And he was -THE COURT: -- who got a title change. Right?
MS. CHAPMAN: No, Your Honor. Mr. -THE COURT: No. She -- she and Mr. Schwartz, the
evidence is -- well, they -- they were the two who
were not changed originally, and then -- I forget his
name now -according to her this morning, you know,
we'll give you a title change. And she said, "No, the

79a

heck with you," and left. Correct?
MS. CHAPMAN: She was offered the title change to
avoid the layoff, Your Honor.
THE COURT: Yeah.
MS. CHAPMAN: That was the specific testimony.
THE COURT: Yeah.
MS. CHAPMAN: Mr. Hoffman was given a title
change. He was not in the management analyst
category to be laid off anymore either. Mr. Harwell
was given a title change. He was not a management
analyst position anymore either.
THE COURT: That's fine.
MS. CHAPMAN: So he wasn't laid off.
THE COURT: That's fine. Now, again, what's the
relevance of that to Mr. Schwartz?
MS. CHAPMAN: Because Mr. Schwartz was the only
one

80a

Case 2:13-cv-00709-JCM-VCF Document 159 Pg 127
left who was not offered a title change.
THE COURT: That's fine.
MS. CHAPMAN: He was laid off.
THE COURT: How -- how does that show age or
disability?
MS. CHAPMAN: He was targeted for the layoff
because they manipulated the job titles in advance of
the layoff -THE COURT: That's your argument. You can argue
that to the jury. But the evidence is there, is it not?
MS. CHAPMAN: Yes, the evidence is there to show
that he was the only one -THE COURT: Whoa, whoa, whoa, whoa. Stop right
there. Not the evidence is there that you want. I'm
not going to say that, "Oh, yeah, there's evidence
there that he was discriminated against." There's

81a

evidence that he was his title was not changed.
Right?
MS. CHAPMAN: Yes, Your Honor.
THE COURT: Now, why -- no. I mean, whatever -the evidence is whatever the jury decides, but -- but
that -- this business with Ms. Powell, how does that
show that -- that he was discriminated against
because of his age or his disability?
MS. CHAPMAN: Well, Your Honor, if you recall
what Ms. Powell was requested is whether she -what her age was. Had Ms. Powell taken the title
change she was offered,
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 128
Mr. Harwell -- Mr. Schwartz would have been the
only one of the management analyst, he was the
oldest management analyst, and he would have been
the only management analyst laid off. He was also

82a

the only disabled management analyst, and he was
laid off.
THE COURT: How many other disabled
management analysts were there?
MS. CHAPMAN: I don't have a list. I can tell you
that, according to Ms. Holloway's testimony, there
were there were two other disabled people in her
department that she was aware of.
THE COURT: Okay. They were all laid off, then,
too?
MS. CHAPMAN: Only one of the two, according to
her testimony, but we hadn't gotten there yet, Your
Honor.
THE COURT: Well, okay. We still haven't answered
my question, though. How is this -- how is Ms.
Powell relevant to this?
MS. CHAPMAN: Your Honor, Ms. Powell is relevant

83a

relevant because Ms. Holloway originally testified
there was no title change offer -THE COURT: Fine. Fine. That's fine, all that.
Answer my question, though. You just -MS. CHAPMAN: The fact -THE COURT: -- want to make argument to me. You
want to say, "Well, wait, here's evidence here and
testimony
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 129
there."
How is Ms. Powell relevant to this?
MS. CHAPMAN: Ms. Powell is relevant because she
was offered the title change to avoid a layoff, Your
Honor, and Mr. Schwartz wasn't. He was isolated.
THE COURT: So she got -- she got special
treatment?
MS. CHAPMAN: And so did Mr. Harwell.

84a

THE COURT: But that's your argument. That's your
argument. Fine. You've put that on the record.
How is it relevant with this woman, with Ms.
Holloway here?
MS. CHAPMAN: Because Ms. Holloway was the
director of business licensing, and she signed off on
every single title change. Every single one.
THE COURT: Okay. Now answer my question. How
how does that affect Ms. Holloway? We've heard
testimony that she signed off on all of those. We've
already heard that. Right?
MS. CHAPMAN: Yes, sir.
THE COURT: I mean, we're just sitting here going
over the same thing again and again and again.
MS. CHAPMAN: Your Honor, it does affect when the
director of business licensing in her deposition denies
THE COURT: You can -- you can laugh --

85a

MS. CHAPMAN: -- a title change.
Case 2:13-cv-00709-JCM-VCF Document 159 Pg 130
THE COURT: -- and chuckle all you want to, but
answer my question. How is it relevant?
MS. CHAPMAN: Again, Your Honor, it is relevant
because -THE COURT: So that she got special treatment;
that's what it's relevant for?
MS. CHAPMAN: No, Your Honor. It's relevant -THE COURT: Yeah. No, no, no. You want to draw an
inference from that. It doesn't necessarily show that.
You can make that argument to the jury. But we sit
here going over Ms. Powell, and it's just we're
wasting everybody's time. We're wasting the jury's
time with this.
MS. CHAPMAN: I would respectfully disagree with
you, Your Honor.

86a

THE COURT: Well, I know you would. I'm sure you
would. But how -- again, you haven't shown me how
this is relevant to Mr. Schwartz's claim, his claims.
MS. CHAPMAN: Again, Your Honor, I have
reiterated on more than one occasion that it is -THE COURT: I'm sorry.
MS. CHAPMAN: -- relevant -THE COURT: I'm a little bit slow. I -- I apologize.
Please -- please accept my abject apology.
MS. CHAPMAN: I'm not trying to be disrespectful,
Your Honor.

87a

